No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., PETITIONERS
v.
KNIGHT FIRST AMENDMENT INSTITUTE AT COLUMBIA
UNIVERSITY, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage prepaid, this 20th
day of August, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 7,980
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
August 20, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 20, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition
to mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management, Office of
the Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s
phone number is (202) 514-2217 or 2218. Thank you for your consideration of this request.

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL.
KNIGHT FIRST AMENDMENT INSTITUTE AT COLUMBIA
UNIVERSITY, ET AL.

JESSICA RING AMUNSON
JENNER & BLOCK
1099 NEW YORK AVENUE, NW
SUITE 900
WASHINGTON, DC 20001
202-639-6000
JAMUNSON@JENNER.COM
JAMEEL JAFFER

KNIGHT FIRST AMENDMENT INSTITUTE AT
COLUMBIA UNIVERSITY
475 RIVERSIDE DRIVE
SUITE 302
NEW YORK, NY 10115

646-745-8500
JAMEEL.JAFFER@KNIGHTCOLUMBIA.ORG

